                                    CLOSEOUT FOR MOO050023

        On April 22, 1999, a division director1consulted OIG about a data sharing dispute. The
division had been contacted by the complainant: a freelance writer, who alleged that the subject3
had refused to share data reported in the subject's NSF-supported book.4 OIG was subsequently
contacted by the subject, the complainant, and a program officer in the division director's
division about this dispute. The program officer, after consultation with NSF's Office of General
Counsel, wrote to the subject concerning the availability of the subject's data. In his letter, the
program officer noted that the subject, in his proposal to NSF, had promised to archive the data
when he completed his work. The program officer asked the subject "what steps [the subject
had] taken to fulfill this commitment." In his reply, the subject gave a detailed account of his
data sharing practices, discussed his relations with the complainant, and renewed his
commitment to archive the data when he completed his work with them.

        OIG concluded that the subject had offered credible reasons for refusing to share data
with the complainant and that, especially in the context of a commitment to archive his data in
the future, his action could not be considered a serious deviation from accepted practices.

        OIG concluded that NSF management had taken reasonable steps to encourage the
subject to adhere to his own commitments and to act in accordance with agency policies. OIG
concluded that there was no basis for OIG investigative activity concerning this matter.

        This inquiry is closed and no fiuther action will be taken on this case.




' Dr.              Director of the Division



1996.


                                              Page 1 of 1                          MOO-23
